RECORD NUMBER: ____________

In the

Supreme Court of the United States
ANTONIO MILLER,
Petitioner,
– v. –

UNITED STATES OF AMERICA,
Respondent.
________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI
DEREK J. ENDERLIN
ROSS & ENDERLIN, PA
330 East Coffee Street
Greenville, SC 29601
(864) 710-3936
derek@rossenderlin.com

Counsel for Petitioner

COUNSEL PRESS • VA – (800) 275-0668

i

QUESTIONS PRESENTED
Petitioner Miller objected to an unlawful search of a rental car in his
driveway. The District Court held that Miller did not have standing
because the car was not his. Collins v. Virginia, 138 S.Ct. 1663, 201
L.Ed.2d 9 (2018), was decided after the District Court made its ruling. The
Fourth Circuit held that the Collins issue was not preserved, because
Miller’s trial counsel failed to impress upon the District Court that the
salient fact was that the car was on Petitioner’s property.
Miller’s trial counsel repeatedly pointed out that the car was on Miller’s
property, in the driveway, in the yard, at his residence, and/or that it was
not on the street. He also pointed out the following:
“Police initially entered Miller’s yard without any warrant
whatsoever – not a search warrant nor an arrest warrant.”
“And in that, [Miller and his wife] still had an expectation of
privacy.” [Court interrupts: How?] “Well, it’s parked in their
driveway and they have a contract with [the rental company].”
“And their expectation of privacy is - - they still have that
because it’s sitting in their yard.”
“The additional fact I would add and reiterate that I think
addresses Your Honor’s concerns is this. It’s on private
property. And I think that makes a world of difference. The
police had no right without a search warrant to even begin to
come onto the property to look around and see what’s there.”
“That’s what I mean. Deputy Ham when he arrives pulls in the
driveway with no search warrant for the car, nothing. And
right there is where the illegality occurs. You know, Justice
Scalia in, I think it was Carpenter decision that talked about a
tracking device - - and I know that’s different. But he talked
about the property interest people have and that when police
commit an illegal search, it’s a trespass under old common law.
:

.

ii

Then he analyzed from there. Let’s say the car had been in a
garage. The police could not have gone in the garage and
searched the car and then towed it, inventoried it, and
retrieved it; not without a warrant. But just because it’s not in
a garage, it’s still on private property in the driveway in the
backyard.”
“You can’t just - - the police can’t just go searching on people’s
property when there’s no exigent circumstances. Nobody is
being shot or robbed on the property in his view. Even if
Officer, former Officer Ham’s, testimony is accepted, and he
somehow sees it, he knows it’s disabled and it can’t move.
There is no exigent circumstance for him to trespass or go on
someone’s property without a warrant. At that point, he could
have and should have obtained a search warrant for the
property to get the car.”
“In closing, I would just reemphasis [sic], since former Officer
Ham knew the kill switch had been executed, the car wasn’t
mobile, there was no exigent circumstances for him to go on the
property, and at that point he needed a warrant to even go on
Mr. Miller’s property to determine whether it was there, if it
was the car, and investigate from there. That wasn’t done
here.”
“And I think that is materially important because it goes back
to, you know, if [the car is] on the street, then that creates a
different protocol and Fourth Amendment issue for police than
if it’s in the backyard. Again, they don’t need a warrant, a
search warrant to inspect it on the street. They do if it’s on
private property.”
“Well, it’s certainly reckless, because the officer would know
they need a warrant to come on private property. They don’t
need a warrant to determine if a car parked on the roadway is -“

:

.

iii

“The officer had no right to be there. If an officer pulls up in my
yard tonight and starts asking me questions, I can tell him to
get the H off my property unless he has got a warrant. ‘Back
your car up and leave because you’re on my property. You don’t
have a search warrant. You don’t have an arrest warrant.’
Now, being who I am, I wouldn’t do that. I’d try to find out who
the officer was and say, have you made a mistake? What are
you here for? But every citizen when they’re on their private
property has the right to tell the officer: Unless you’ve got a
warrant, depart.”
Considering the above, did trial counsel fail to bring this issue to the
attention of the District Court?

:

.

iv

PARTIES TO THE PROCEEDINGS
All Parties are listed in the caption on the cover page.

:

.

v

TABLE OF CONTENTS
QUESTIONS PRESENTED........................................................................ i
PARTIES TO THE PROCEEDING .......................................................... iv
TABLE OF CONTENTS ............................................................................ v
INDEX OF APPENDICES ........................................................................ vi
TABLE OF AUTHORITIES .....................................................................vii
OPINIONS BELOW ................................................................................... 1
JURISDICTION ......................................................................................... 1
CONSTITUTIONAL AND STATUTORY PROVISIONS ......................... 1
STATEMENT OF THE CASE ................................................................... 3
I. Factual History .................................................................................. 3
A. Procedural History ................................................................... 6
II. Proceedings Below ............................................................................. 7
REASONS FOR GRANTING THE WRIT ............................................... 15
I. The Fourth Circuit Court of Appeals erred by ignoring the
Collins decision and by finding the trial attorney failed to
preserve the defendant’s expectation of privacy position ......... 15
CONCLUSION ......................................................................................... 18

:

.

vi

INDEX OF APPENDICES
APPENDIX A – Opinion of the United States Court of Appeals for the
Fourth Circuit, Entered April 15, 2020
APPENDIX B – Judgment of the United States District Court for the
District of South Carolina, Entered October 17, 2018

:

.

vii

TABLE OF AUTHORITIES
Cases
Arizona v. Hicks,
403 U.S. 321, 107 S.Ct. 1149, 94 L.Ed.2d 347 (1987) ...................... 9
Byrd v. United States,
138 S.Ct. 1518 (2018) ...................................................................... 10
Collins v. Virginia,
584 U.S. , 138 S.Ct. 1663 (2018) ........................................... passim
Henderson v. United States,
568 U.S. 266 (2013) ................................................................... 14, 15
Rakas v. Illinois,
439 U.S. 128 (1978) ..................................................................... 9, 17
United States v. Chadwick,
433 U.S. 1, 97 S.Ct. 2476, 53 L.Ed2d 538 (1977) ............................. 9
United States v. Henderson,
568 U.S. 266 (2013) ......................................................................... 17
United States v. Olano,
507 U.S. 725 (1993) ......................................................................... 17
United States v. Williams,
504 U.S. 36, 41 (1992) ..................................................................... 16
Rules and Statutes
18 U.S.C. § 924............................................................................................ 1
18 U.S.C. § 1201.......................................................................................... 2

viii

21 U.S.C. § 841............................................................................................ 3
21 U.S.C. § 846............................................................................................ 3
21 U.S.C. § 848............................................................................................ 3
28 U.S.C. § 1254(1) ..................................................................................... 1
Constitutional Amendments
U.S. Const. amend. IV ................................................................................ 1

1
Petitioner Antonio Miller respectfully petitions for a writ of
certiorari to review the judgment of the Fourth Circuit Court of Appeals.
OPINIONS BELOW
The opinion of the Fourth Circuit Court of Appeals is reported at
809 Fed.Appx. 131. The District Court order is reported at 2018 WL
1858947.
JURISDICTION
The Fourth Circuit Court of Appeals entered judgment on April
15, 2020. This Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUORY PROVISIONS
The Fourth Amendment to the United States Constitution reads:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures, shall
not be violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.
18 U.S.C. § 924: Penalties
(c)(1)(A)Except to the extent that a greater minimum
sentence is otherwise provided by this subsection or by any
other provision of law, any person who, during and in
relation to any crime of violence or drug trafficking
crime (including a crime of violence or drug trafficking
crime that provides for an enhanced punishment if
committed by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in a court of
the United States, uses or carries a firearm, or who, in
furtherance of any such crime, possesses a firearm, shall, in
addition to the punishment provided for such crime of
violence or drug trafficking crime—

2
(i) be sentenced to a term of imprisonment of not less
than 5 years;
(ii) if the firearm is brandished, be sentenced to a term
of imprisonment of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term
of imprisonment of not less than 10 years.
BUT,
(j)A person who, in the course of a violation of subsection (c),
causes the death of a person through the use of a firearm,
shall—
(1)if the killing is a murder (as defined in section 1111),
be punished by death or by imprisonment for any term
of years or for life; and
(2)if the killing is manslaughter (as defined in section
1112), be punished as provided in that section.
18 U.S.C. § 1201: Kidnapping
(a) Whoever unlawfully seizes, confines, inveigles, decoys,
kidnaps, abducts, or carries away and holds for ransom or
reward or otherwise any person, except in the case of a
minor by the parent thereof, when—
(1) the person is willfully transported in interstate or
foreign commerce, regardless of whether the person
was alive when transported across a State boundary, or
the offender travels in interstate or foreign commerce
or uses the mail or any means, facility, or
instrumentality of interstate or foreign commerce in
committing or in furtherance of the commission of the
offense;
(2) any such act against the person is done within the
special maritime and territorial jurisdiction of the
United States;

3
21 U.S.C. § 848: Continuing Criminal Enterprise
Any person who engages in continuing criminal enterprise
shall be sentenced to a term of imprisonment which may not
be less than 20 years and which may be up to life
imprisonment.
21 U.S.C. § 846: Attempt and Conspiracy
Any person who attempts or conspires to commit any offense
defined in this subchapter shall be subject to the same
penalties as those prescribed for the offense, the commission
of which was the object of the attempt or conspiracy.
21 U.S.C. § 841: Prohibited Acts
(a) Unlawful Acts. Except as authorized by this subchapter,
it shall be unlawful for any person knowingly or
intentionally—
(1) to manufacture, distribute, or dispense, or possess
with intent to manufacture, distribute, or dispense a
controlled substance
STATEMENT OF THE CASE
I.

Factual History
This case arises out of a search of a rental vehicle in Miller’s

driveway. Miller’s wife rented the car, but failed to return it on time.
The rental company was aware Miller was driving the vehicle. The
rental company called the police to retrieve the car. When responding to
the Miller’s residence, the police observed another car pull into the
Millers’ driveway, and upon investigation arrested the driver for driving

4
without a license. Upon search of that driver’s vehicle, police found a
firearm, at which time one of the officers went on the Millers’ property
and searched the rental car because, “Well, when there’s one gun there’s
possibly two or three.” (Fourth Circuit Joint Appendix (JA) 9). The
police found cocaine in the rental car, and then requested a search
warrant of the residence, which resulted in evidence linking Miller to a
murder and other charges. The facts are set forth in the District Court’s
order as follows:
On the morning of September 15, 2008, Officer
Franklin Ham (Officer Ham) of the Richland County
Sheriff’s Office (RCSO) received a dispatch call regarding a
green Ford Taurus (Green Vehicle) that was a few days
overdue to be returned to U-Save Auto Rental (U-Save) in
Columbia, South Carolina. The Green Vehicle had been
rented by Deidre King (Ms. King), Defendant’s wife.
Defendant was not listed as an authorized driver on the
rental agreement for the Vehicle. Officer Ham entered the
Green Vehicle into the National Crime Information Center
database as a breach of trust vehicle.
Later in the day on September 15, 2008, the manager
at U-Save, Jeffrey Day (Mr. Day), informed Officer Ham that
the Global Positioning System (GPS) tracking device on the
Green Vehicle indicated the Vehicle was located at 5520
North Main Street (the Residence) in Columbia, South
Carolina, which was Defendant and Ms. King’s residence.
Mr. Day further informed Officer Ham that he had remotely
disabled the Green Vehicle.
Officer Ham traveled to the Residence, and, as he was
pulling up to the Residence, he saw a red Ford Taurus (Red
Vehicle) pull into the driveway and park behind the Green

5
Vehicle. Officer Ham observed several people standing in the
yard of the Residence, including [Miller], and he asked them
where [Miller] and Ms. King were. When he received no
response, Officer Ham asked everyone in the yard for
identification. Defendant initially refused to answer Officer
Ham, but he later identified himself as “Eric Huey” and
claimed he had a South Carolina driver’s license with that
name.
When the driver of the Red Vehicle gave his license to
Officer Ham, Officer Ham determined it was suspended, and
he placed that individual under arrest for driving under
suspension. Shortly thereafter, Officer Stephen Dauway
(Officer Dauway) of RCSO arrived at the Residence and
searched the Red Vehicle. Officer Dauway found two
firearms in the Red Vehicle. After searching the Red Vehicle,
Officer Dauway conducted a warrantless search of the Green
Vehicle and discovered a plastic bag containing crack
cocaine. Officer Dauway then detained several men standing
on the back stoop of the Residence, including [Miller], for
questioning.
Officer Dauway called narcotics investigator Marcus
Brown (Investigator Brown) of RCSO, and Investigator
Brown and Investigator Taima Jordan (Investigator Jordan)
of RCSO arrived on scene at the Residence. Investigator
Brown questioned [Miller], and [Miller] expressed concern
about picking his son up from the school bus stop.
Investigator Brown told Defendant they needed “to go ahead
and take care of this” and said they would try to call
[Miller]’s wife to pick up his child but, if not, they would call
the Department of Social Services (DSS) “to take control of
the child till we get the situation taken care of.” Investigator
Brown then advised Defendant of his Miranda rights, and
Defendant admitted one of the guns in the Red Vehicle and
the cocaine found in the Green Vehicle were his.
Investigator Brown subsequently called Investigator
Robert Crane (Investigator Crane) of the RCSO to prepare a
search warrant for the Residence. The Olympia Magistrate
signed the search warrant and Investigator Crane delivered

6
the search warrant to the Residence. When Investigator
Crane delivered the search warrant, Investigator Jordan
executed it and seized a number of items, including cocaine
and firearms.
After searching the Residence, Investigator Jordan
again advised Defendant of his Miranda rights and
questioned him. Investigator Jordan informed Defendant of
the drugs and guns recovered during the search of the
Residence and told him he and Ms. King would both be
charged if nobody claimed the items. Defendant then stated
the items were his.
A. Procedural History
Defendant was convicted by a jury in South Carolina
state court in 2012 of murder and related offenses arising
out of a homicide that occurred in Aiken County, South
Carolina on September 15, 2008. On appeal, the South
Carolina Court of Appeals affirmed the trial court’s denial of
Defendant’s motion to suppress evidence found in the
Residence, holding the affidavit supporting the search
warrant for the Residence established probable cause for the
warrant. State v. Miller, No. 2014-UP-409, 2014 WL
6488693 (S.C. Ct. App. Nov. 19, 2014). The South Carolina
Supreme Court, however, held on March 30, 2016, that the
affidavit failed to establish probable cause for the warrant
and reversed [Miller]’s convictions. State v. Miller, No. 2016MO-009, 2016 WL 1244403 (S.C. Mar. 30, 2016).
On August 16, 2017, the Government filed a threecount indictment (Indictment) against [Miller] arising out of
the 2008 homicide in Aiken County. The Indictment charges
Defendant with use of a firearm causing death, kidnapping
resulting in death, and a drug
conspiracy resulting in death.
(JA 645-648). Miller entered a conditional guilty plea and reserved the
right to challenge the District Court’s pretrial rulings. (JA 677, 686).

7

II. Proceedings Below
Miller was represented by attorneys Allen Burnside and Jeffrey
Bloom at the trial level. He was represented by attorney Emily Deck
Harrill at the Fourth Circuit Court of Appeals. The Court of Appeals
issued its opinion on April 15, 2020. On March 19, 2020 this Court
extended deadlines to file petitions for writ of certiorari to 150 days,
making Miller’s petition due September 14, 2020. Undersigned counsel
was appointed to represent Miller on this petition for certiorari on July
14, 2020.
Trial counsel filed a motion and memorandum to suppress evidence
based on an illegal search in violation of the Fourth Amendment. In fact,
in the second sentence of that motion, counsel notes, “The defendant
specifically objects to the warrantless search and seizure of a green
Taurus rental car parked in the driveway at the house at 5520 North
Main Street, Columbia, S.C.” (JA 190). On that same page, counsel notes
that it specifically did not redact the address because it was relevant to
the Court’s review and it was the defendant’s house. (Id.)
The motion notes “the green Ford Taurus rental car parked at the
North Main Street house” and “the green Ford Taurus rental car, which

8
was parked in the driveway at 5520 North Main Street, Columbia, S.C.”
(JA 192). The next page starts with an underlined heading: “The First
Search and Seizure: A Warrantless Search and Seizure of a Rental Car
Parked in the Driveway at 5520 North Main Street, Columbia S.C.”; it
also notes police “had located the rental car at 5520 North Main Street,
Columbia.” (JA 193). It then notes that prior testimony showed officers
could see “the green rental car in the driveway near the rear of the house
at 5520 N. Main Street”, which was the residence of Miller. The memo
also notes “Miller was standing in his own yard”. It then notes officers
searched the red car, and then “conducted a warrantless search on the
green car which was still parked in the driveway at 5520 N. Main Street,
Columbia.” (JA 194).
The motion then points out the testimony of why officers searched
the green car: “Well, when there’s one gun there’s possibly two or three.”
It points out that the search was conducted within five minutes of the
officer arriving and “Miller, who was in his own yard, was in
‘investigative detention’ and was not free to leave…” (JA 195).
The motion also notes, “A house is certainly explicitly contained
within the Fourth Amendment. [Citation Omitted]. Also, a vehicle is an

9
“effect” within the Amendment’s purview and protection. United States

v. Chadwick, 433 U.S. 1, 12, 97 S.Ct. 2476, 53 L.Ed2d 538 (1977).” The
motion again notes the police lacked any probable cause as to the green
car and that it was parked at the residence of the defendant.
Trial counsel also pointed out in other areas of his motion that,
“Police initially entered Miller’s yard without any warrant whatsoever –
not a search warrant nor an arrest warrant. See Arizona v. Hicks, 403
U.S. 321, 107 S.Ct. 1149, 94 L.Ed.2d 347 (1987).” (JA 251).
The Government filed a motion in opposition, to which trial counsel
specifically objected to the argument that Miller lacked standing: “Miller
has Standing to Object to the Search of the Rental Car.” Trial counsel
noted the company agent testified he rented the car to Miller’s wife, that
Miller was with her when she rented it, and the car was parked in Miller
and his wife’s driveway at their residence. Trial counsel cited Rakas v.

Illinois, 439 U.S. 128 (1978) for this proposition. (JA 428). In their written
response, trial counsel also pointed out that police wrongly stated the car
was “parked in ‘front of the incident location’ of the house”. (JA 432).
During the beginning of the suppression argument, trial counsel
points out the green car was searched without a warrant, and the District

10
Court points out it was searched because, “Where you’ve got one gun, you
might have another gun.” The District Court clearly focused on the fact
that the rental lease had expired. (JA 587-591). But trial counsel
immediately asserted that the couple did have “a possessory interest to
[the rental car].” (JA 588). The court does the bulk of the talking during
this time, but trial counsel clearly stated their position, “they still had an
expectation of privacy.” (JA 589). The court continued to question trial
counsel and asked how they had an expectation of privacy, to which
counsel responded, “Well, it’s parked in their driveway and they have a
contract with U-Save.”
While trial counsel also properly asserted an expectation of privacy
that would be relevant under Byrd v. United States, 138 S.Ct. 1518
(2018), and the trial court responded, “I see your point.” (JA 592), it is
clear trial counsel’s main focus was the identical issue considered in

Collins: “And their expectation of privacy is - - they still have that because
it’s sitting in their yard.” (JA 591). Trial counsel also referred to Arizona

v. Gant when emphasizing that similarly, police were witnessing activity
in the yard and the car was parked in the driveway. (JA 593-594).

11

The following conversation then took place at JA 596:
Trial counsel :“The additional fact I would add and reiterate that I
think addresses Your Honor’s concerns is this. It’s on private
property. And I think that makes a world of difference. The police
had no right without a search warrant to even begin to come onto
the property to look around and see what’s there.”
Court: “Well, what about the deputy’s car? He was on private
property?”
Trial counsel: “That’s what I mean. Deputy Ham when he arrives
pulls in the driveway with no search warrant for the car, nothing.
And right there is where the illegality occurs. You know, Justice
Scalia in, I think it was Carpenter decision that talked about a
tracking device - - and I know that’s different. But he talked about
the property interest people have and that when police commit an
illegal search, it’s a trespass under old common law. Then he [JA
597] analyzed from there. Let’s say the car had been in a garage.
The police could not have gone in the garage and searched the car
and then towed it, inventoried it, and retrieved it; not without a
warrant. But just because it’s not in a garage, it’s still on private
property in the driveway in the backyard.”
The Court: “I know. But - -“
Trial counsel: “So police entry - -“
Court: “But your client - - it might have been in the garage, but your
client still wasn’t authorized to go into that car, not to open it up,
not to drive it, not to do something.”
[The prosecutor interjects, and trial counsel further clarifies his
position]. Trial counsel: “You can’t just - - the police can’t just go
searching on people’s property when there’s no exigent
circumstances. Nobody is being shot or robbed on the property in
his view. Even if Officer, former Officer Ham’s, testimony is

12
accepted, and he somehow sees it, he knows it’s disabled and it can’t
move. There is no exigent circumstance for him to [JA 598] trespass
or go on someone’s property without a warrant. At that point, he
could have and should have obtained a search warrant for the
property to get the car.”
Court: “Okay.” (JA 599).
And further, Trial counsel: “In closing, I would just reemphasis
[sic], since former Officer Ham knew the kill switch had been
executed, the car wasn’t mobile, there was no exigent circumstances
for him to go on the property, and at that point he needed a warrant
to even go on Mr. Miller’s property to determine whether it was
there, if it was the car, and investigate from there. That wasn’t done
here.”
Court: “Okay.” (JA 600).
Trial counsel also noted that police falsely put in the later search
warrant that the car was on the street, “And I think that is
materially important because it goes back to, you know, if it’s on
the street, then that creates a different protocol and Fourth
Amendment issue for police than if it’s in the backyard. Again, they
don’t need a warrant, a search warrant to inspect it on the street.
They do if it’s on private property.” (JA 602).
[The Court considered whether this falsity was an error or
intentional, to which trial counsel responded]. Trial counsel: “Well,
it’s certainly reckless, because the officer would know they need a
warrant to come on private property. They don’t need a warrant to
determine if a car [JA 604] parked on the roadway is - - “
Court: “Well, I think that further supports what I’m saying. It
doesn’t make any sense for them to include information like that as
a falsehood.”
Bloom: “Well, other than they knew they had gone in the car
without a warrant to start and the car is parked in the - - “

13

Court: “Well, I think we’re getting a little far afield there. But I see
your point. I see your point.”
[In discussing the Miranda argument, trial counsel further
pointed out]. Trial counsel: “And that’s why I go back. The officer
had no right to be there. If an officer pulls up in my yard tonight
and starts asking me questions, I can tell him to get the H off my
property unless he has got a warrant. ‘Back your car up and leave
because you’re on my property. You don’t have a search warrant.
You don’t have an arrest warrant.’ Now, being who I am, I
wouldn’t do that. I’d try to find out who the officer was and say,
have you made a mistake? What are you here for? But every
citizen when they’re on their private property has the right to tell
the officer: Unless you’ve got a warrant, depart. So those two
statements I think directly come under the Brown case, the
McCloud case, and the Watson case.” (JA 617).
In its order, the District Court noted, “The Government presented
testimony from witnesses at the hearing, and the parties thoroughly
argued their positions. The Court, having been fully briefed on the
relevant issues, is now prepared to discuss the merits of Defendant’s
Motion to Dismiss, Motion to Suppress Evidence, and Motion to
Suppress Statements.” The District Court then dismissed the motion to
suppress the evidence in the rental car in two paragraphs. (JA 656).
The judge relied on the fact that Miller had no claims of ownership or
possessory interest in the rental car, without mentioning the fact that
the car was on Miller’s property. Id.

14
In responding to the Government’s assertion that the matter was
not preserved, appellate counsel cited two of the examples above as well
as pages 588-603 in the Joint Appendix. Appellate counsel also noted
that even under a plain error standard, the issue was “plain” at the
time of appellate consideration under United States v. Henderson, 568
U.S. 266, 279 (2013).
The Fourth Circuit held, “In this appeal, Miller argues – for the
first time – that the evidence from the cars on his property and from his
home should have been suppressed because the officers unlawfully
intruded on the curtilage of his home before conducting the searches.”
(Appendix A, page 3). The Fourth Circuit noted that, “Near the end of
the hearing, however, Miller’s counsel for the first time noted that the
rental car was on private property, and that officers ‘had no right
without a search warrant to even begin to come onto the property to
look around and see what’s there.’ J.A. 596.” (Appendix A, page 9). Trial
counsel had repeatedly pointed out the car was on private property
before this; more importantly, the Fourth Circuit failed to point out that
at the suppression hearing, the Government specifically requested that
they put testimony in the record first and argue afterwards, and trial

15
counsel almost immediately asserted his client’s expectation of privacy
due to the fact that the car was on his property. (JA 582). The Fourth
Circuit also noted, appellate counsel relied “virtually exclusively on the
Supreme Court’s decision in Collins” (Appendix A, page 13). The Fourth
Circuit ultimately noted, “[O]n plain error review, we cannot say that
the officers so clearly exceeded their license to ‘knock and talk’ that the
denial of Miller’s suppression motion was plainly erroneous on this
ground.”
REASONS FOR GRANTING THE PETITION
Certiorari is warranted here because the Fourth Circuit has so far
departed from the accepted and usual course of judicial proceedings, or
sanctioned such a departure by a lower court, as to call for an exercise
of this Court’s supervisory power; in the alternative, the Court should
remand this case for further reconsideration in light of Collins v

Virginia and Henderson v. United States, 568 U.S. 266 (2013).
I.

The Fourth Circuit Court of Appeals erred by ignoring the
Collins decision and by finding the trial attorney failed to
preserve the defendant’s expectation of privacy position.
This matter was clearly raised to both the District and Circuit

Court - to hold otherwise would set the bar on preservation of error at a

16
level that is virtually unobtainable. The issue was clearly “pressed and
passed”. United States v. Williams, 504 U.S. 36, 41 (1992). Trial counsel
repeatedly asserted that Miller had an expectation of privacy because the
car was on his private property and the District Court acknowledged
counsel’s argument.
The Fourth Circuit also stated, “Indeed, even on appeal, it has been
left to us to tease out the full dimensions of Miller’s position.” Miller’s
position was clearly stated in his brief, beginning with the first two
sentences under the Summary of the Arguments: “The district court
erred in denying Miller’s motion to suppress the evidence. Under Collins

v. Virginia, 584 U.S.

, 138 S.Ct. 1663 (2018), the officer’s entry

into the curtilage of Miller’s home to search the vehicles was unlawful.”
(Fourth Circuit Record ECF 14, page 19). Miller’s position was further
clarified in the following four pages of his brief by discussing Collins.
The Court of Appeals dismissed Collins, holding the officers had a
right to “knock and talk”. Even if the “license to knock and talk” includes
police conduct such as pulling into a driveway with emergency signals
activated, asking for identification, arresting an individual, and
searching that driver’s car, the Court of Appeals failed to explain how a

17
“knock and talk” granted a police officer the authority to search the green
rental car. For example, there is nothing in Collins to suggest the officer
would have had a right to look under the tarp if he had entered the
property to “knock and talk”. When law enforcement intruded on the
curtilage to gather evidence, such conduct is presumptively unreasonable
absent a warrant. Collins.
The Fourth Circuit’s repeated recitation of standing, and their
apparent focus on possessory interest is misplaced. Rakas v. Illinois, 439
U.S. 128 (1979). Whether Miller had some ownership interest in the
object is irrelevant in light of Collins. An owner has an expectation of
privacy in objects on his property - whether they are borrowed, left there
for safekeeping, or stolen and under a tarp. (See Appellant’s Reply, ECF
29, page 3). The Court of Appeals failure to even consider Collins in this
regard is inexplicable. It is also inexplicable, that the Fourth Circuit
reviewed this issue under plain error, without ever considering the
factors in United States v. Olano, 507 U.S. 725 (1993) or Henderson v.

United States, 568 U.S. 266 (2013). (See Reply, page 10).
Miller appropriately asserted his objection to the illegal search of
the rental car at his residence. He identified his rights almost identically

18
to the way the Collins opinion stated them, that officers had no more
right to search the vehicle as if it were in the garage in his home. The
Fourth Circuit’s opinion that trial counsel failed to adequately raise this
issue before the District Court is completely without merit.
CONCLUSION
The petition for writ of certiorari should be granted, or in the
alternative, this matter should be remanded for further consideration
under Collins v. Virginia.
Respectfully submitted,

/s/ Derek J. Enderlin
Derek J. Enderlin

Counsel of Record

Ross and Enderlin, PA
330 East Coffee Street
Greenville, SC 29601
864-710-3936
September 14, 2020

APPENDIX A

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 1 of 19

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4796

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ANTONIO MILLER,
Defendant - Appellant.

Appeal from the United States District Court for the District of South Carolina at Aiken.
Mary G. Lewis, District Judge. (1:17-cr-00770-MGL-1)

Argued: January 31, 2020

Decided: April 15, 2020

Before KEENAN, HARRIS, and QUATTLEBAUM, Circuit Judges.

Affirmed by unpublished opinion. Judge Harris wrote the opinion, in which Judge Keenan
and Judge Quattlebaum joined.

ARGUED: Emily Deck Harrill, OFFICE OF THE FEDERAL PUBLIC DEFENDER,
Columbia, South Carolina, for Appellant. Thomas Ernest Booth, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for Appellee. ON BRIEF: Brian A.
Benczkowski, Assistant Attorney General, Matthew S. Miner, Deputy Assistant Attorney
General, Appellate Section, Criminal Division, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C.; Sherri A. Lydon, United States Attorney, Columbia, South
Carolina, J.D. Rowell, Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Denver, Colorado, for Appellee.

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 2 of 19

Unpublished opinions are not binding precedent in this circuit.

2

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 3 of 19

PAMELA HARRIS, Circuit Judge:
In 2008, Antonio Miller and a group of co-conspirators participated in the
early-morning robbery, torture, and murder of a rival drug trafficker. Later that day, police
officers visited Miller’s home in response to an unrelated complaint that Miller’s wife had
not returned a rental car on time. Warrantless searches of two cars parked beside Miller’s
home uncovered guns and a large bag of crack cocaine. Officers then obtained a warrant
to search Miller’s home, and discovered guns, drugs, ammunition, and blood-caked shoes
that linked Miller to his rival’s murder. Using that evidence, federal authorities brought
criminal charges against Miller. Miller pleaded guilty on all counts, but reserved the right
to appeal the district court’s decision declining to suppress the evidence obtained from the
car and home searches.
In this appeal, Miller argues – for the first time – that the evidence seized from the
cars on his property and from his home should have been suppressed because the officers
unlawfully intruded on the curtilage of his home before conducting the searches. He also
argues that even if the officers’ entry onto his property was constitutional, the evidence
obtained from his home should have been suppressed because the warrant application
failed to establish a nexus between his home and any criminal activity. We conclude that
Miller cannot prevail on either argument and thus affirm his convictions.

3

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 4 of 19

I.
A.
In early 2008, Miller became involved in a conspiracy to manufacture and distribute
crack cocaine in Columbia, South Carolina. 1 Later that summer, Miller persuaded his
co-conspirators that the group should rob Fred Tucker, a drug dealer known to Miller from
a prior stint in prison who also happened to be a cousin of one of Miller’s co-conspirators,
Melvin Cummings. And so, in the early morning hours of September 15, 2008, Miller and
three co-conspirators drove from Columbia to Tucker’s home in Aiken, South Carolina.
Upon arriving, they broke into the residence, forced Tucker to strip at gunpoint, and bound
him with duct tape. The conspirators then interrogated Tucker about the location of drugs
and cash in his home, burning him repeatedly with a flat-head screwdriver and firing
multiple shots into a wall in his home. As the conspirators finally left the home, Miller
shot Tucker in the chest.
For their drive to Tucker’s home, the conspirators used a green Ford Taurus
previously rented by Miller’s wife, Deidre King. On the morning of Tucker’s murder,
Jeffrey Day, a manager at the auto rental company, noticed that the rental car was overdue
for return. Using a global positioning system (“GPS”) device attached to the car, Day
determined that it had been driven to Aiken, miles away from his company’s location in
Columbia. Day called the Richland County Sheriff’s Department (“RCSD”) and reported

1

Because we are reviewing a denial of a motion to suppress, we recount the relevant
facts in the light most favorable to the government. See United States v. Jones, 942 F.3d
634, 637 (4th Cir. 2019).
4

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 5 of 19

that King had breached her rental contract. He also provided information about Miller,
King, and the rental car, including King’s address – 5520 North Main Street – and stated
that Miller sometimes paid for and drove the rental car in King’s stead. Hours later, Day
was able to report to RCSD that the car had been driven back to Columbia and that the GPS
put it near King’s home.
At that point, RCSD officers began the response that set the stage for Miller’s
suppression motion. From a “staging area” near King’s address, they could see a green car
matching Day’s description parked against the rear portion of the residence. As they drove
to Miller’s house, they saw a car driven by Cummings turn into Miller’s driveway, then
stop directly behind the rental car, within the curtilage of Miller’s home. 2 The officers
followed Cummings’s car into the driveway and parked their patrol car.
The officers then immediately approached a small group of people standing near the
rental car and asked whether King and Miller were present. When nobody spoke up, the
officers asked for identification so they could determine whether the rental car’s driver was
present. They also noted that the rental car’s appearance, license plate, and vehicle
identification number matched the information provided by Day. Eventually, each member
of the group gave the officers a name and date of birth, save Cummings, who provided his
driver’s license. A database search revealed that Cummings had a suspended driver’s

2

While the district court did not make an express finding that the cars were parked
within the curtilage, the government does not contest this fact. Accordingly, we deem it
admitted for purposes of this appeal. Cf. United States v. Foreman, 369 F.3d 776, 778 n.1
(4th Cir. 2004).
5

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 6 of 19

license and that one other member of the group – later confirmed to be Miller – had
provided a false identity. This prompted the officers to place Cummings under arrest and
to question Miller further about his identity.
Then came two automobile searches, including the search of the rental car. While
the officers were processing Cummings’s arrest, they saw Miller walk over to Cummings’s
car and get inside of it. The officers quickly removed Miller from Cummings’s car and
briefly searched it, discovering two handguns that Cummings identified as belonging to
Miller. To secure any additional weapons that might be on the scene, the officers then
searched the rental car. Immediately upon opening the door, they saw a plastic bag
containing a large amount of crack cocaine.
The officers continued their investigation, speaking separately with the group
members and then contacting certain drug informants and the police in Aiken County,
where Tucker was murdered. When the officers discovered that Cummings was related to
Tucker and had been named as a person of interest in his death, they prepared an application
for a search warrant for King and Miller’s home. That search warrant is the subject of
Miller’s second argument on appeal.
The proposed warrant listed the place to be searched as “a single-story single-family
dwelling” located at 5520 North Main Street. J.A. 40. The items to be seized were listed
as “crack cocaine and marijuana, cellular phones, pagers . . . . [p]araphernalia, paperwork
and other items associated with [drug trafficking] . . . . [w]eapons, US currency and articles
of personal property tending to establish the identity of persons in control of areas where
the aforementioned items are found.” J.A. 40. A supporting affidavit described the report
6

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 7 of 19

of an overdue rental car at 5520 North Main Street and the officers’ observation of that car
and encounter with Miller at that address. It went on to describe the discovery of cocaine
inside the rental car and Miller’s extensive criminal history, including at least 12 arrests
for narcotics offenses. It then explained that, based on their experience, the officers
expected “that additional narcotics [would] be recovered from inside” the residence:
Individuals at the scene of drug activity often carry weapons and store drugs in vehicles on
the property, and drugs are commonly found “within the curtilage of illegal drug sales
locations.” J.A. 42.
A state-court magistrate approved the proposed search warrant. The resulting
search of Miller’s home uncovered crack cocaine, drug paraphernalia, three handguns, and
various forms of ammunition. The officers also seized two pairs of athletic shoes that one
officer recognized as counterfeit. Subsequent analyses revealed that the shoes matched
prints left at the scene of Tucker’s murder, that blood on the shoes had come from Tucker,
and that the weapons seized from Miller’s home matched bullet casings found in Tucker’s
home.
State authorities were the first to charge Miller for offenses stemming from Tucker’s
murder. Before his state trial, Miller moved to suppress the evidence seized from his home,
arguing that the application for the search warrant failed to establish any nexus between
the drugs found in the rental car and his residence, and thus probable cause that evidence
would be discovered within the home itself. The state trial court denied Miller’s motion,
and a jury convicted Miller of all charges. Miller appealed his convictions, which the South
Carolina Court of Appeals affirmed. See State v. Miller, No. 2014-UP-409, 2014 WL
7

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 8 of 19

6488693 (Nov. 19, 2014). But the South Carolina Supreme Court reversed, finding that
the affidavit for the home search warrant “failed to establish probable cause that evidence
of a crime may be contained within the residence sought to be searched.” State v. Miller,
No. 2015-000365, 2016 WL 1244403, at *1 (Mar. 30, 2016).
B.
That brings us to the federal prosecution at issue in this appeal. After Miller’s state
convictions were vacated, federal authorities indicted Miller on three charges related to
Tucker’s death: using a firearm during a crime of violence causing death, in violation of
18 U.S.C. §§ 924(c)(1)(A)(iii), 924(j)(1)–(2); kidnapping resulting in death, in violation of
18 U.S.C. §§ 1201(a)(1)–(2); and conspiracy to possess with intent to distribute 280 grams
or more of crack cocaine, resulting in death, in violation of 21 U.S.C. §§ 841(a)(1),
841(b)(1)(A), 846, 848.
In the district court, Miller moved to suppress the evidence obtained as a result of
the searches of the rental car and his home. Miller’s first argument focused on the search
of the rental car: According to Miller, that search violated the Fourth Amendment both
because the officers lacked probable cause for the search and because they had used GPS
tracking data to locate the rental car without getting a warrant for that data. And because
the crack cocaine discovered in the illegal search of the rental car was used to obtain the
home search warrant, Miller reasoned, the evidence seized from his home was “fruit of the

8

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 9 of 19

poisonous tree” and thus inadmissible. 3 Miller also advanced a second argument, this one
focused directly on the home search: Even if the cocaine discovered in the rental car was
admissible, Miller contended, the evidence seized from his home should be suppressed
because, as the South Carolina Supreme Court had ruled, the warrant affidavit failed to
establish probable cause for the search of his residence.
The district court held a hearing on Miller’s suppression motion. Most of the
hearing was devoted to the issues raised in Miller’s motion and to the government’s
response to those arguments. In particular, the court focused on whether Miller had
standing to challenge the search of the rental car – that is, whether he had a reasonable
expectation of privacy in a car leased by someone else and after that lease had expired.
Near the end of the hearing, however, Miller’s counsel for the first time noted that the rental
car was on private property, and that the officers “had no right without a search warrant to
even begin to come onto the property to look around and see what’s there.” J.A. 596. At
no point in this brief discussion did counsel suggest that his trespass-based argument might
provide an alternative ground for suppression even if Miller did not have standing to object
to the search of the rental car itself.

3

Miller expressly declined to challenge the separate search of Cummings’s car,
conceding that he “obviously lack[ed] standing to contest” that search and informing the
district court that it was “not the subject of” any defense objection. J.A. 194, 204. In light
of that express waiver, to the extent Miller now seeks to challenge that search and suppress
the handguns it uncovered, we will not consider those arguments. See United States v.
Claridy, 601 F.3d 276, 284 n.2 (4th Cir. 2010) (“When a claim of . . . error has been waived,
it is not reviewable on appeal.”).
9

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 10 of 19

The district court denied Miller’s motion to suppress. United States v. Miller,
No. CR 1:17-770-MGL, 2018 WL 1858947 (D.S.C. Apr. 18, 2018). With respect to the
search of the rental car, the court held that Miller lacked standing to challenge the search.
See id. at *6–7. Miller was not the official lessee of the car and “was not listed as an
authorized driver on [King’s] rental agreement,” the court explained. Id. at *6. Moreover,
the lease had expired, and “the [v]ehicle was overdue to be returned.” Id. Accordingly,
“[a]s an unauthorized driver of a breach of trust vehicle,” id., Miller “had no reasonable
expectation of privacy in the” car and thus could not challenge its search, id. at *7. The
district court made no mention of the trespass theory to which Miller’s counsel had alluded
at the hearing.
As for the search of the house, the district court first rejected Miller’s argument that
it was bound, under principles of collateral estoppel and res judicata, by the South Carolina
Supreme Court’s holding that the warrant was unsupported by probable cause. See id. at
*7. Instead, the court proceeded directly to the “good faith” doctrine of United States v.
Leon, 468 U.S. 897 (1984), and held that because the officers reasonably relied on a search
warrant in conducting their search of Miller’s residence, the evidence obtained from that
search was admissible. See id. at *7–8.
Following the district court’s decision, Miller entered into a written plea agreement
and pleaded guilty to all three counts in the federal indictment. State authorities agreed not
to re-prosecute Miller in state court for any crimes related to Tucker’s death, and Miller
retained his right to appeal the district court’s denial of his suppression motion. The district

10

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 11 of 19

court accepted Miller’s plea and sentenced him to 360 months’ imprisonment and five
years’ supervised release. Miller then noted this timely appeal.

II.
A.
We turn first to the search of the rental car and begin by clarifying the argument that
Miller is advancing on appeal. Importantly, Miller does not challenge the district court’s
ruling that he lacked a reasonable expectation of privacy in the rental car and thus had no
standing to challenge its search. 4 Instead, he argues – for the first time on appeal – that
even without standing to contest the search of the rental car itself, he is entitled to
suppression of the evidence obtained from that search: According to Miller, because the
officers unconstitutionally intruded into the curtilage of his home when they entered his
driveway and approached the people standing nearby, all of the evidence the officers
subsequently discovered – not only the drugs seized from the rental car, but also the
handguns from Cummings’s car and the evidence from the house – must be suppressed,
because it all is tainted by the initial illegal trespass. We review this claim for plain error,
and find none.

4

Soon after the district court’s decision, the Supreme Court held in Byrd v. United
States “that the mere fact that a driver in lawful possession or control of a rental car is not
listed on the rental agreement will not defeat his or her otherwise reasonable expectation
of privacy.” 138 S. Ct. 1518, 1531 (2018). Because Miller is not appealing the district
court’s ruling on standing, we have no occasion to consider the possible implications of
Byrd for that ruling.
11

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 12 of 19

1.
When a defendant fails to raise an argument before the district court and the district
court does not pass on the issue, we review only for plain error. See United States v. Tate,
845 F.3d 571, 575 (4th Cir. 2017). To establish plain error, a defendant must show that the
district court’s failure to suppress evidence was error, that the error is plain, and that the
error both affected his “substantial rights” and calls into question “the fairness, integrity,
or public reputation of judicial proceedings.” United States v. Brack, 651 F.3d 388, 392
(4th Cir. 2011) (citation omitted). Under our precedent, “[a]n error is plain when it is
obvious or clear under current law.” Id. (internal quotation marks and citation omitted).
Because Miller did not raise his trespass-based argument for suppression before the
district court – and the district court accordingly did not address it – it is subject to the
plain-error standard on appeal. Miller’s motion to suppress made no mention of this theory
and challenged the search of the rental car only on two different grounds: that the officers
lacked probable cause to enter the rental car, and that the officers improperly relied on GPS
data without a warrant. Indeed, Miller’s motion cannot be reconciled logically with his
new position on appeal: As Miller now argues, his trespass theory extends equally to the
evidence uncovered from the search of Cummings’s car as to the search of the rental car,
but in his suppression motion, Miller expressly waived any challenge regarding
Cummings’s car.
Nor did Miller’s brief allusions at the suppression hearing to an intrusion onto his
curtilage put the district court on notice of his new trespass-based theory. That is not only
because, as the government argues, Miller mentioned trespass only in snippets and in
12

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 13 of 19

passing. The bigger problem is that none of those snippets connected the dots for the
district court: At no point did Miller clarify that the argument he was hinting at was not
simply an alternative ground for finding the search of the rental car unconstitutional, but
instead an independent basis for suppressing all of the evidence in the case even if he lacked
standing to challenge the rental car search itself. Indeed, even on appeal, it has been left
to us to tease out the full dimensions of Miller’s position. Under these circumstances, we
conclude that Miller did not properly raise his trespass-based theory before the district
court, and that we may review it now only for plain error.
2.
On appeal, Miller relies virtually exclusively on the Supreme Court’s decision in
Collins v. Virginia, 138 S. Ct. 1663 (2018), which he argues so squarely controls that the
district court plainly erred by failing to suppress based on the officers’ intrusion onto his
curtilage. We disagree.
Although the facts of Collins involve a trespass onto curtilage and a vehicle search,
the legal principle at issue in that case differs importantly from the one presented here. In
Collins, a police officer walked onto a private driveway without a warrant, and lifted a tarp
to inspect a motorcycle. See id. at 1668. The Virginia Supreme Court held that the officer’s
warrantless search of the motorcycle was justified by the automobile exception to the
Fourth Amendment, which permits warrantless searches of vehicles under certain
circumstances. But the Supreme Court reversed, holding that the automobile exception
could not justify the officer’s initial intrusion onto the defendant’s curtilage, see id. at
1672–73, “the area ‘immediately surrounding and associated with the home,’” which is
13

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 14 of 19

treated as “part of the home itself for Fourth Amendment purposes,” id. at 1670 (quoting
Florida v. Jardines, 569 U.S. 1, 6 (2013)). The legal rule established by Collins, then, is
that the automobile exception does not provide a “lawful right of access” to a home’s
curtilage. Id. at 1672. And that rule has no direct application here: The government never
argued, and the district court did not hold, that the automobile exception justified the
officers’ initial entry onto Miller’s driveway.
Instead, as the government argues, Miller’s claim is properly assessed under Florida
v. Jardines, in which the Supreme Court held that a warrantless search accomplished
through an “unlicensed physical intrusion” onto a constitutionally protected area, including
the curtilage around a house, violates the Fourth Amendment. 569 U.S. at 7. But at the
same time, the Court recognized, not every police entry onto curtilage is “unlicensed.”
Rather, a police officer, like any visitor, has an “implicit license” to “approach [a] home in
order to speak with the occupant.” Id. at 8, 9 n.4; see also Kentucky v. King, 563 U.S. 452,
469 (2011) (“When law enforcement officers who are not armed with a warrant knock on
a door, they do no more than any private citizen might do.”) So the question in this case is
whether the officers were within the scope of this well-established “knock and talk” license
when they crossed into Miller’s driveway and approached the people standing there – or,
more precisely, whether it was plain error to treat them as though they were.
We do not think Miller can show plain error here. Although the knock-and-talk
doctrine is sometimes framed as a right to “approach the home by the front path” or knock
on a front door, see Jardines, 569 U.S. at 8; King, 563 U.S. at 469, we have made clear that
the implicit license is broader than that, and allows an officer to go elsewhere “when
14

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 15 of 19

circumstances reasonably indicate that the officer might find the homeowner elsewhere on
the property.” Covey v. Assessor of Ohio Cty., 777 F.3d 186, 193 (4th Cir. 2015) (citation
omitted). Thus, we have held that an officer, without a warrant, may proceed directly into
a homeowner’s backyard when he sees a group of people located there and reasonably
could infer that the homeowner likely was among them. See Alverez v. Montgomery Cty.,
147 F.3d 354, 358–59 (4th Cir. 1998). And while the police do not have an implicit license
or invitation to conduct a search on private property, see Jardines, 569 U.S. at 9–10, a
“knock and talk” is permissible so long as there is a “legitimate purpose” for entering
curtilage that is “unconnected with a search of the premises,” Covey, 777 F.3d at 193 n.6.
In light of those precedents, it is not “clear and obvious,” see United States v.
Denton, 944 F.3d 170, 182 (4th Cir. 2019) (applying standard for plain error), that the
officers exceeded the scope of their implicit license to enter Miller’s curtilage. Based on
their review of King’s car rental agreement, which listed 5520 North Main Street as her
home address, and Day’s description of the relationship between King and Miller, the
officers had reason to believe that both King and Miller lived at the residence in question.
When they arrived and saw a group of people standing just beside the home, they – like the
officer in Alverez – could “reasonabl[y] . . . proceed there directly as part of their effort to
speak with” King and Miller. 147 F.3d at 359. And once there, by Miller’s own account
in his motion to suppress, the officers immediately asked to speak with King and Miller,
the presumed homeowners and drivers of the rental car, rather than inspecting the rental
car or otherwise “reveal[ing] a purpose to conduct a search.” Jardines, 569 U.S. at 10. We
recognize Miller’s argument that the officers, by activating the blue lights on their patrol
15

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 16 of 19

car when they entered his driveway, engaged in coercive conduct that went beyond the
“customary invitation” offered all visitors. Id. at 9. But Miller has identified no case law
addressing that nuance, and on plain error review, we cannot say that the officers so clearly
exceeded their license to “knock and talk” that the denial of Miller’s suppression motion
was plainly erroneous on this ground. 5
B.
We turn next to Miller’s alternative argument: that the evidence obtained from the
search of his home must be suppressed because the warrant for the search was not based
on probable cause. The district court rejected that argument, finding that the officers
searched Miller’s home in objectively reasonable reliance on the search warrant, and that
the evidence thus was admissible under Leon’s “good faith” exception. We agree with the
district court.
Because Miller raised this issue in his suppression motion, we review the district
court’s legal conclusions de novo and any associated factual findings for clear error. See
United States v. Thomas, 908 F.3d 68, 72 (4th Cir. 2018). We also accord “great deference”
to a magistrate judge’s decision to issue a search warrant, “ask[ing] only whether the
judicial officer had a ‘substantial basis’ for finding probable cause.” United States v. Jones,
942 F.3d 634, 638 (4th Cir. 2019) (quoting Illinois v. Gates, 462 U.S. 213, 236–38 (1983)).

5

Because we find no plain error in the rejection of Miller’s trespass-based claim on
the merits, we need not address the government’s alternative argument that even if there
had been a Fourth Amendment violation, suppression would not be warranted under the
inevitable discovery doctrine. Nor need we address the government’s contention that Day
gave authorized consent for a search of the rental car.
16

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 17 of 19

And even if a search warrant later is determined to be deficient under this standard, under
Leon’s good-faith doctrine, the evidence obtained will be suppressed only if the executing
officer could not rely on the warrant in objectively reasonable good faith. See Leon, 468
U.S. at 922–23.
On appeal, as before the district court, Miller argues that the search warrant affidavit
failed to establish any nexus at all between criminal activity in general and his house in
particular. According to Miller, for example, there was nothing in the affidavit linking the
rental car – or the drugs found inside it – to his house, or even linking Miller himself to the
residence. Without such information, Miller finishes, there was no probable cause that
criminal evidence would be found inside the home, and that deficiency was so apparent
from the face of the warrant affidavit that no reasonable officer could have relied on the
warrant in objective good faith.
But as the district court found, the affidavit in fact “articulates a number of facts”
that could support the requisite nexus between the criminal drug activity described in the
affidavit and Miller’s residence at 5520 North Main Street. See Miller, 2018 WL 1858947,
at *8. The affidavit did link Miller to the residence in question, explaining that the officers
had encountered him there while attempting to recover an overdue rental car tracked to the
same location and leased to a “Deidra Miller,” presumably Miller’s wife. J.A. 41. It also
linked the drugs uncovered on the scene to the house, describing the crack cocaine
discovered in the rental car on the premises and the officers’ experience-based knowledge
that drugs commonly are found “within the curtilage of illegal drug sales locations.” J.A.
42; see also United States v. Williams, 548 F.3d 311, 319 (4th Cir. 2008) (affidavit
17

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 18 of 19

established nexus between criminal activity and dwelling by detailing the suspects’
involvement in drug trafficking and explaining that, in the affiant’s experience, drug
traffickers store drug-related items in their homes). Given the posture of this case, we have
no occasion to decide whether the affidavit satisfies the probable cause standard. It is
sufficient, as the district court held, that the affidavit is not “so lacking in indicia of
probable cause” to search Miller’s home “as to render official belief in its existence entirely
unreasonable” under Leon. Id. at 318 (quoting Leon, 468 U.S. at 923).
We do not want to suggest that this is a close question. But were there any doubt,
we, like the district court, would find it dispelled by the decisions of the South Carolina
courts. See Miller, 2018 WL 1858947, at *8. It is true, as Miller emphasizes, that the
South Carolina Supreme Court held that the warrant application at issue here did not
establish probable cause for a search of Miller’s home – though even that court suggested
that the evidence nevertheless might be admissible, perhaps through the good-faith
exception. See State v. Miller, No. 2015-000365, 2016 WL 1244403, at *1 (Mar. 30, 2016).
But considering the same warrant application, the South Carolina Court of Appeals came
to a different conclusion, holding that it did establish a sufficient nexus between Miller’s
criminal activity and his home. See State v. Miller, No. 2014-UP-409, 2014 WL 6488693,
at *1 (Nov. 19, 2014). A defendant always bears a heavy burden when he argues after-thefact that an officer could not rely in objective good faith on a search warrant, and we think
that burden is even heavier where, as here, an appellate court already has approved the
warrant. Cf. Leon, 468 U.S. at 926 (finding officers’ reliance on a warrant was objectively

18

USCA4 Appeal: 18-4796

Doc: 50

Filed: 04/15/2020

Pg: 19 of 19

reasonable where there was “disagreement among thoughtful and competent judges as to
the existence of probable cause”).
Because the executing officers relied in objectively reasonable good faith on a
warrant when they searched Miller’s home for evidence, we affirm the district court’s
application of Leon and find that the evidence obtained from Miller’s home would have
been admissible had Miller proceeded to trial.

III.
For the foregoing reasons, we affirm Miller’s convictions.
AFFIRMED

19

APPENDIX B

1:17-cr-00770-MGL

Date Filed 10/17/18

Entry Number 85

Page 1 of 6

AO 245B (SCDC Rev.02/18) Judgment in a Criminal Case Sheet 1

UNITED STATES DISTRICT COURT
District of South Carolina
JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA
vs.

Case Number: 1:17-770 (001 MGL)
ANTONIO MILLER
USM Number: 93918-071
Jeffrey Bloom
Defendant’s Attorney
THE DEFENDANT:

O
G
G

pleaded guilty to count(s) 1-3 of the Indictment .
pleaded nolo contendere to count(s)
was found guilty on count(s) after a plea of not guilty.

which was accepted by the court.

The defendant is adjudicated guilty of these offenses:
Title & Section
18:924(c)(1)(A)(iii), 924(j)(1)
& 18:2
18:1201(a)(1) & 18:2
21:848, 846, 841(a)(1) &
841(b)(1)(A)

Nature of Offense

Offense Ended

Count

Please see Indictment
Please see Indictment

9/15/08
9/15/08

1
2

Please see Indictment

9/15/08

3

The defendant is sentenced as provided in pages 2 through 6 of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.

G
G
O

The defendant has been found not guilty on count(s)
Count(s)

G is Gare

.

dismissed on the motion of the United States.

Forfeiture provision is hereby dismissed on motion of the United States Attorney.

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of any material changes in economic
circumstances.
______________________________________________________
October 16, 2018
Date of Imposition of Judgment
s/Mary Geiger Lewis
Signature of Judge
______________________________________________________
Mary Geiger Lewis, United States District Judge
Name and Title of Judge
October 17, 2018
Date

1:17-cr-00770-MGL

Date Filed 10/17/18

Entry Number 85

Page 2 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case

Page 2

Sheet 2 - Imprisonment

DEFENDANT: ANTONIO MILLER
CASE NUMBER: 1:17-770

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for
a total term of three hundred sixty (360) months as to each count, to run concurrently.

O

The court makes the following recommendations to the Bureau of Prisons: that the defendant be housed
at a medical facility that can accommodate his medical issues.

O

The defendant is remanded to the custody of the United States Marshal.

G

The defendant shall surrender to the United States Marshal for this district:

G at
G a.m. G p.m. on
G as notified by the United States Marshal.

.

G

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:

G before 2 p.m. on
.
G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this Judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.
UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case

1:17-cr-00770-MGL

Date Filed 10/17/18

Entry Number 85

Page 3 of 6

Page 3

Sheet 3 - Supervised Release

DEFENDANT: ANTONIO MILLER
CASE NUMBER: 1:17-770

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five (5) years as to each count, to run
concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
9 The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future
substance abuse. (check if applicable)
9 You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
 You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
9 You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. §20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
9 You must participate in an approved program of domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with the following special condition:
1) The defendant must submit to a random drug testing program to determine if he has used a prohibited substance as administered
by the U.S. Probation Office. He must contribute to the cost of such program not to exceed an amount determined reasonable by
the court-approved “U.S. Probation Office’s Sliding Scale for Services.”

1:17-cr-00770-MGL

Date Filed 10/17/18

Entry Number 85

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3A- Supervised Release

Page 4 of 6

Page 4

DEFENDANT: ANTONIO MILLER
CASE NUMBER: 1:17-770

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer
excuses you from doing so. If you plan to change where you work or anything about your work (such as your position or job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at
least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at www.uscourts.gov.

Defendant’s Signature _______________________________________________________ Date __________________________

1:17-cr-00770-MGL

Date Filed 10/17/18

Entry Number 85

Page 5 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Page 5

DEFENDANT: ANTONIO MILLER
CASE NUMBER: 1:17-770

CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

G
G

JVTA Assessment*

$ 300.00

Fine

Restitution

$

$

The determination of restitution is deferred until _____________. An Amended Judgment in a Criminal Case(AO245C) will be
entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

Name of Payee

TOTALS

Total Loss*

Restitution Ordered

$____________________

Priority or Percentage

$___________________

G

Restitution amount ordered pursuant to plea agreement

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §3612(f). All of the payment options on Sheet 5 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
G
The interest requirement is waived for the G fine G restitution.
G
The interest requirement for the G fine G restitution is modified as follows:

$

*Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
**Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

1:17-cr-00770-MGL

Date Filed 10/17/18

Entry Number 85

Page 6 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 6 - Schedule of Payments

Page 6

DEFENDANT: ANTONIO MILLER
CASE NUMBER: 1:17-770

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

O

Lump sum payment of $ 300.00 due immediately, balance due

G
G

not later than

, or

B

G C, G D, or G E, or G F below: or
G Payment to begin immediately (may be combined with G C, G D, or G F below); or

C

G

in accordance with

Payment in equal

(weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence
D

G

E

G

F

G

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a
period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or
Payment during the term of supervised release will commence within (e.g., 30 or 60 days) after release from imprisonment.
The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or
Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G
G
G

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

As directed in the Preliminary Order of Forfeiture, filed

and the said order is incorporated herein as part of this judgment.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

